                                                                             Report No. DODIG-2014-082



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              J U LY 1 1 , 2 0 1 4




                     Development and Implementation
                     of Sexual Assault Evidence and
                     Criminal Records Retention Policy




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                           Results in Brief
                                           Development and Implementation of Sexual Assault
                                           Evidence and Criminal Records Retention Policy



July 11, 2014

Objective                                                      Recommendations
We initiated this review as required by                        None.
the “National Defense Authorization Act
(NDAA) for Fiscal Year (FY) 2014.” Our
objective was to review the Military Criminal
                                                               Management Comments
Investigative Organizations’1 (MCIO) progress                  No written response to this report was required.
in implementing DoD policy on the retention
of and access to evidence and criminal
records relating to sexual assault of service
members as required by “The National
Defense Authorization Act for Fiscal
Year 2012,” and Department of Defense
Instruction (DODI) 5505.18, “Investigation
of Adult Sexual Assault in the Department
of Defense,” January 25, 2013, Incorporating
Change 1, May 1, 2013.


Findings
DoD has developed policy for retaining and
accessing evidence and criminal records
for sexual assault victims as required by NDAA
FY 2012.

The MCIOs have issued Service-specific
policies and procedures to implement Federal
law and DoD guidance.




	1	
      The MCIOs are the Army Criminal Investigation
      Command, Naval Criminal Investigative Service, and Air
      Force Office of Special Investigations.




Visit us at www.dodig.mil


                                                                                                                  DODIG-2014-082 │ i
                                             INSPECTOR GENERAL
                                            DEPARTMENT OF DEFENSE
                                            4800 MARK CENTER DRIVE
                                         ALEXANDRIA, VIRGINIA 22350-1500


                                                                                             July 11, 2014

           MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
           		 MANAGEMENT AND COMPTROLLER)
           	              NAVAL INSPECTOR GENERAL
           	              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

           SUBJECT:	 Development and Implementation of Sexual Assault Evidence and Criminal Records 		
           	         Retention Policy (Report No. DODIG-2014-082)

           We are providing this report for information and use. Public Law 112-81, “National Defense
           Authorization Act for Fiscal Year 2012,” Section 586, required the Secretary of Defense
           (Secretary) to develop a comprehensive DoD policy that incorporated 11 elements outlined in
           the Law on the retention of and access to evidence and records for sexual assaults involving
           service members.

           Section 1734 of the National Defense Authorization Act for Fiscal Year 2014 directed the
           Secretary to review the progress made in developing and implementing sexual assault evidence
           and records retention and access policy required by NDAA FY 2012. A report to the Armed
           Services Committees in the Senate and House was due on June 24, 2014.

           We reviewed DoD’s progress in developing sexual assault evidence and criminal records
           retention and access policy, and the Military Criminal Investigative Organizations’ progress in
           implementing that policy.

           We found that DoD has developed policy for retaining and accessing evidence and criminal
           records for sexual assault victims as required, and the MCIOs have issued Service-specific
           policies and procedures to implement Federal law and DoD guidance.

           For additional information on this report, please contact Mr. Jeff Bennett, Acting Director of
           Oversight, at (703) 699-5667.




           	                                              Randolph R. Stone
           	                                              Deputy Inspector General
           	                                              Policy and Oversight




ii │ DODIG-2014-082
Contents
Introduction
Objective__________________________________________________________________________________________1
Background ______________________________________________________________________________________1

Results_______________________________________________________________________________________4
   1.	 DoD has developed policy for retaining and
       accessing evidence and criminal records for sexual
       assault victims as required by NDAA FY 12._____________4
   2.	 The MCIOs have issued Service-specific policies
       and procedures to implement the federal law
       and DoD guidance.________________________________________________________4
   Discussion______________________________________________________________________________4
FY 2012 NDAA Element 1: Identification of records, including non-Department of
    Defense records, relating to an incident of sexual assault that must
    be retained___________________________________________________________________________________4
FY 2012 NDAA Element 2: Criteria for collection and retention of records_ _______________5
FY 2012 NDAA Element 3: Identification of physical evidence and non-documentary
    forms of evidence relating to sexual assaults that must be retained____________________5
FY 2012 NDAA Element 4: Length of time records, including Department of Defense
    Form 2911, and evidence must be retained except that__________________________________5
FY 2012 NDAA Element 4a: The length of time physical evidence and forensic evidence
   must be retained shall be not less than 5 years; and _____________________________________5
FY 2012 NDAA Element 4b: The length of time documentary evidence relating to sexual
   assaults must be retained shall be not less than the length of time investigative
   records relating to reports of sexual assaults of that type (restricted or unrestricted
   reports) must be retained_ _________________________________________________________________6
FY 2012 NDAA Element 5: Location where records must be stored________________________6
FY 2012 NDAA Element 6: Media which may be used to preserve records and assure
    access, including an electronic system of records_________________________________________6




                                                                                                   DODIG-2014-082 │ iii
                  Contents (cont’d)
                  FY 2012 NDAA Element 7: Protection of privacy of individuals named in records
                      and status of records under section 552 of title 5, United States Code (commonly
                      referred to as the “Freedom of Information Act”), restricted reporting cases, and
                      laws related to privilege_ ___________________________________________________________________7
                  FY 2012 NDAA Element 8: Access to records by victims of sexual assault, the
                      Department of Veterans Affairs, and others, including alleged assailants and law
                      enforcement authorities____________________________________________________________________7
                  FY 2012 NDAA Element 9: Responsibilities for records retention by the military
                      departments_________________________________________________________________________________7
                  FY 2012 NDAA Element 10: Education and training on record
                      retention requirements_____________________________________________________________________7
                  FY 2012 NDAA Element 11: Uniform collection of data on the incidence of
                      sexual assaults and on disciplinary actions taken in substantiated cases
                      of sexual assault_____________________________________________________________________________8
                  Conclusion________________________________________________________________________________________9

                  Appendix
                  References______________________________________________________________________________________ 10




iv │ DODIG-2014-082
                                                                                         Introduction




Introduction
Objective
We initiated this review as required by the National Defense Authorization Act (NDAA)
FY 2014, Section 1734, of the progress made in developing and implementing policy
of retention and access to evidence and criminal records related to sexual assaults of
service members.

The overall objective was to assess DoD’s compliance with sexual assault evidence and
criminal records retention and access requirements in Section 586, NDAA FY 12.

Specifically, we sought to determine whether the MCIOs are implementing sexual
assault evidence and criminal records retention and access requirements in Department
of Defense Instruction DoDI 5505.18, “Investigation of Adult Sexual Assault in the
Department of Defense,” January 25, 2013, Incorporating Change 1, May 1, 2013.


Background
Federal Law
On December 31, 2011, Public Law 112-81, “National Defense Authorization Act for
Fiscal Year 2012,” was enacted. Section 586 of the law, “Department of Defense Policy
and Procedures on Retention and Access to Evidence and Records Relating to Sexual
Assaults Involving Members of the Armed Forces,” required the Secretary of Defense
(Secretary) to develop a comprehensive DoD policy on the retention of and access to
evidence and records for sexual assaults involving service members.

Section 586 specifically required that the policy address:

      1.	   Identification of records, including non-Department of Defense records,
            relating to an incident of sexual assault that must be retained.

      2.	   Criteria for collection and retention of records.

      3.	   Identification of physical evidence and non documentary forms of evidence
            relating to sexual assaults that must be retained.




                                                                                     DODIG-2014-082 │ 1
Introduction



                      4.	   Length of time records, including Department of Defense Forms 2910 and
                            2911, and evidence must be retained, except that—

                             a.	 the length of time physical evidence and forensic evidence must be
                                 retained, shall be not less than 5 years; and

                             b.	 the length of time documentary evidence relating to sexual assaults
                                 must be retained shall be not less than the length of time investigative
                                 records relating to reports of sexual assaults of that type (restricted
                                 or unrestricted reports) must be retained.

                      5.	   Locations where records must be stored.

                      6.	   Media which may be used to preserve records and assure access, including
                            an electronic systems of records.

                      7.	   Protection of privacy of individuals named in records and status of records
                            under section 552 of title 5, United States Code (commonly referred to
                            as the ‘‘Freedom of Information Act’’ (FOIA)), section 552a of title 5,
                            United States Code (commonly referred to as the ‘‘Privacy Act’’), restricted
                            reporting cases, and laws related to privilege.

                      8.	   Access to records by victims of sexual assault, the Department of
                            Veterans Affairs, and others, including alleged assailants and law
                            enforcement authorities.

                      9.	   Responsibilities for record retention by the military departments.

                      10.	 Education and training on record retention requirements.

                      11.	 Uniform collection of data on the incidence of sexual assaults and on
                            disciplinary actions taken in substantiated cases of sexual assault.

                 On December 26, 2013, Public Law 113-66, “National Defense Authorization Act for
                 Fiscal Year 2014,” was enacted. Section 1734 directed the Secretary to review the
                 progress made in developing and implementing sexual assault evidence and records
                 retention and access policy required by NDAA FY 2012. A report to the Armed Services
                 Committees in the Senate and House was due on June 24, 2014.


                 DoD Policy
                 In December 2011, DoD issued Directive Type Memorandum (DTM) 11-062, “Document
                 Retention in Cases of Restricted and Unrestricted Reports of Sexual Assault.” The




2 │ DODIG-2014-082
                                                                                                                                     Introduction



DTM 11-062 established DoD policy on the retention of sexual assault records
pertaining to service members who report being sexual assault victims. The DTM
incorporated Public Law 112-81, Section 586 requirements. It mandated retention
schedules for records of service members who reported they are sexual assault
victims based on whether they filed a Restricted or Unrestricted Report as defined
in DoD Directive (DoDD) 6495.01, “Sexual Assault Prevention and Response (SAPR)
Program,” January 23, 2012 Incorporating Change 1, April 30, 2013. The DTM was
effective immediately, served as interim guidance, and was ultimately incorporated
into DoDD 6495.01 and DoDI 5505.18.

In January 2013, DoD issued DoDI 5505.18, which implemented Federal law,
incorporated DTM 11-062’s interim guidance for unrestricted reports, and established
requirements, responsibilities, and procedures for conducting adult sexual assault
criminal investigations within DoD.

The Instruction establishes policy and procedures for the MCIOs on retaining sexual
assault criminal investigative reports, forensic examination forms and reports,
disposition data, and physical and forensic evidence related to Unrestricted Reporting2
of sexual assault. It also provides that access to criminal investigative records and
files will be in accordance with DoD privacy policies in DoDD 5400.11, “DoD Privacy
Program,” May 8, 2007 and DoDD 5400.11-R, “Department of Defense Privacy Program,”
May 14, 2007, which implement the FOIA and the Privacy Act.


Scope and Methodology
Our review assessed the MCIOs’ compliance with DoDI 5505.18 since its promulgation
in January 2013. We focused on whether the Service MCIOs have developed and/
or implemented policies and procedures and how these policies comply with
requirements in the NDAA FY 2012, Section 586, and DoDI 5505.18.

We reviewed MCIO criminal investigative and evidence policies and procedures and
met with MCIO representatives to discuss how they are implementing DoDI 5505.18
evidence and criminal records retention and access requirements.




	2	
      Per DoDD 6495.01, Unrestricted Reporting allows an individual to report the details of his/her sexual assault and receive
      medical treatment, counseling, and advocacy services, and the report triggers the official investigative process.




                                                                                                                                  DODIG-2014-082 │ 3
Results




                 Results
                     1.	 DoD has developed policy for retaining and
                         accessing evidence and criminal records for sexual
                         assault victims as required by NDAA FY 12.
                     2.	 The MCIOs have issued Service-specific policies
                         and procedures to implement the federal law and
                         DoD guidance.


                 Discussion
                 	 1.	 DoD has complied with NDAA FY 2012 requirements in 	
                 	 	 developing and implementing a sexual assault evidence 	
                 	 	 and 	criminal records retention and access policy.
                 The NDAA FY 2012, Section 586, required DoD to develop a comprehensive sexual
                 assault policy on evidence and records retention, and access, and include, at a minimum,
                 11 elements outlined in the law.

                 DTM 11-062 was the interim directive and the DoDI 5505.18 is the implementing
                 guidance for DoD’s comprehensive policy for evidence and criminal records retention
                 and access, and incorporates the 11 elements in the NDAA. We identified the applicable
                 sections of the Instruction that address promulgation and implementation of those
                 11 elements below.


                 	 A.	 FY 2012 NDAA Element 1:
                          Identification of records, including non-Department of Defense
                          records, relating to an incident of sexual assault that must
                          be retained.

                 DoDI 5505.18, Enclosure 2, paragraphs 8 and 9, require MCIOs to retain DD Form 2911,
                 “DoD Sexual Assault Forensic Examination (SAFE) Report,” or reports from civilian
                 sexual assault forensic exams conducted at civilian healthcare facilities. MCIOs must
                 also retain all final sexual assault disposition data and investigative reports.




4 │ DODIG-2014-082
                                                                                                      Results



	 B.	 FY 2012 NDAA Element 2:
         Criteria for collection and retention of records.

DoDI 5505.18, Enclosure 2, paragraphs 8 and 9, require MCIOs to retain DD Form 2911,
or reports from civilian sexual assault forensic exams conducted at civilian healthcare
facilities, all final sexual assault disposition data, and investigative reports for 50 years.
If the investigation was referred to another agency, the MCIO must obtain disposition
and final investigative reports from the lead investigative agency and retain them
for 50 years.


	 C.	 FY 2012 NDAA Element 3:
         Identification of physical evidence and non-documentary forms of
         evidence relating to sexual assaults that must be retained.

DoDI 5505.18, Enclosure 2, paragraph 6e, requires that primary MCIO investigators
assigned to conduct sexual assault investigations be properly trained in conducting
such investigations.


	 D.	 FY 2012 NDAA Element 4:
         Length of time records, including Department of Defense Form 2911,
         and evidence must be retained except that:

DoDI 5505.18, Enclosure 2, paragraphs 8 and 9, require MCIOs to retain DD Form 2911,
or reports from civilian sexual assault forensic exams conducted at civilian healthcare
facilities, all final sexual assault disposition data, and investigative reports for a period
of 50 years. If the investigation was referred to another agency, the MCIO must obtain
disposition and final investigative reports from the lead investigative agency and
retain them for 50 years.


		       a.	 FY 2012 NDAA Element 4a:
         	      The length of time physical evidence and forensic evidence 	
         	      must be retained shall be not less than 5 years; and

DoDI 5508.18, Enclosure 2, paragraph 10, requires all physical and forensic evidence
relating to sexual assaults involving service members be retained for a period of at
least 5 years from the date the evidence is acquired. However, in certain circumstances




                                                                                             DODIG-2014-082 │ 5
Results



                 evidence may be returned to the owner prior to the 5-year period after authorization
                 from the court-martial convening authority when:

                          a.	 It is determined that the allegation is unfounded, i.e., the crime did not occur
                              and/or it was a false allegation;

                          b.	 The subject is acquitted or the appeal process has been exhausted; or

                          c.	 The evidence is taken from a suspect who is later deemed to be the wrong
                              person, i.e., mistaken identity.

                 		       b.	 FY 2012 NDAA Element 4b:
                          	       The length of time documentary evidence relating to sexual 	
                          	       assaults must be retained shall be not less than the length 	
                          	       of time investigative records relating to reports of sexual 	 	
                          	       assaults of that type (restricted or unrestricted reports) must 	
                          	       be retained.

                 DoDI 5505.18, Enclosure 2, paragraphs 8 and 9, require MCIOs to retain documentary
                 evidence related to sexual assault for a period of 50 years.


                 	 E.	 FY 2012 NDAA Element 5:
                          Location where records must be stored.

                 DoDI 5505.18, paragraph 3a, requires criminal investigative records be maintained in
                 accordance with DoD privacy policies.


                 	 F.	 FY 2012 NDAA Element 6:
                          Media which may be used to preserve records and assure access,
                          including an electronic system of records.

                 DoDI 5505.18, Enclosure 2, paragraphs 8 and 9, require MCIOs to retain DD Form 2911,
                 or reports from civilian sexual assault forensic exams conducted at civilian healthcare
                 facilities, all final sexual assault disposition data, and investigative reports for a period
                 of 50 years. If the investigation was referred to another agency, the MCIO must obtain
                 disposition and final investigative reports from the lead investigative agency and retain
                 them for 50 years. If creating digital records, the DD Form 2911 is uploaded as part of
                 the archived file.




6 │ DODIG-2014-082
                                                                                                   Results



	 G.	 FY 2012 NDAA Element 7:
         Protection of privacy of individuals named in records and status of
         records under section 552 of title 5, United States Code (commonly
         referred to as the “Freedom of Information Act”), restricted reporting
         cases, and laws related to privilege.

DoDI 5505.18, paragraph 3a, requires MCIOs to protect individuals’ privacy in
accordance with DoDD 5400.11, “DoD Privacy Program,” May 8, 2007, Incorporating
Change 1, September 1, 2011, which directs that “the legal rights of individuals shall
be protected when collecting, maintaining, using or disseminating personal information
about individuals.”


	 H.	 FY 2012 NDAA Element 8:
         Access to records by victims of sexual assault, the Department of
         Veterans Affairs, and others, including alleged assailants and law
         enforcement authorities.

DoDI 5505.18, paragraph 3a, requires MCIOs to comply with Freedom of Information
Act requests, while assuring the individual’s privacy in accordance with the Privacy Act,
legal privileges, and DoD privacy program directives.


	 I.	 FY 2012 NDAA Element 9:
         Responsibilities for records retention by the military departments.

DoDI 5505.18, paragraph 1, established policy, assigned responsibilities and provided
procedures for sexual assault criminal investigative records and physical evidence
retention for the Service MCIOs. Paragraph 2 states it applies to the military departments.


	 J.	 FY 2012 NDAA Element 10:
         Education and training on record retention requirements.

DoDI 5505.18, paragraph 4b(1) assigns responsibility for education and training on
records retention requirement.      The Instruction states that component heads will
ensure compliance with the Instruction and prescribe additional procedures as
necessary to implement its policy. The MCIOs have also instituted various procedures
to ensure continued education and training through basic and supplemental training
at special agent training academies, computer-based training, and Inspector General
inspections and site visits.




                                                                                          DODIG-2014-082 │ 7
Results



                 	 K.	 FY 2012 NDAA Element 11:
                          Uniform collection of data on the incidence of sexual assaults and
                          on disciplinary actions taken in substantiated cases of sexual assault.

                 DoDI 5505.18, Enclosure 2, paragraph 12, requires all MCIOs to provide unrestricted
                 sexual assault data elements for incorporation into the Defense Sexual Assault Incident
                 Database. Additionally, paragraph 4 requires that commanders provide the MCIOs all
                 disposition data, to include any administrative, non-judicial punishment or judicial
                 action taken.


                 	 2.	 The MCIOs are implementing DoDI 5505.18 	    	                                   	
                 	 	 requirements for evidence and records retention 	                                  	
                 		 and access.
                 The MCIOs have issued Service-specific guidance on conducting criminal investigations
                 that include DoD requirements for sexual assault evidence and criminal records
                 retention and access.

                 The Army’s Criminal Investigation Command (CID) implements DoD sexual
                 assault investigation guidance in CID Regulation 195-1, “Criminal Investigation
                 Operational Procedures,” March 4, 2014.         The Regulation established policies on
                 criminal investigation activities, “including the utilization and control, and investigative
                 responsibilities of all personnel assigned to the U.S Army Criminal Investigation
                 Command elements.”

                 The Navy’s Naval Criminal Investigative Service (NCIS) has issued NCIS Policy Document
                 13-06, “Investigation of Adult Sexual Assaults,” October 7, 2013, that outlined NCIS
                 policy on sexual assault investigations.

                 The Air Force’s Office of Special Investigations (AFOSI) sexual assault investigation
                 guidance is outlined in its “Office of Special Investigations Manual 71-118
                 Volume 4, General Investigative Methods,” April 5, 2012, Incorporating Change 4,
                 March 1, 2013. The Manual provides policy, guidance, and procedures necessary to
                 standardize investigative operations, and ensure investigative sufficiency for general
                 investigative methods common to AFOSI.




8 │ DODIG-2014-082
                                                                                          Results



Conclusion
We concluded that DoD has implemented NDAA FY 2012 requirements as they
pertain to evidence and records associated with criminal investigations through
DTM 11-062, and then DoDI 5505.18, and the MCIOs are implementing the requirements
by establishing specific policies and procedures.




                                                                                 DODIG-2014-082 │ 9
Appendix




                 Appendix
                 References
                 Federal Law
                 10 U.S.C. § 1561, “Comprehensive Policy on Retention and Access to Records.” Provides
                 the Military Departments a comprehensive policy on the retention of and access to
                 evidence and records relating to sexual assaults involving members of the Armed Forces.

                 Public Law 112-81, Section 586, “National Defense Authorization Act for Fiscal Year
                 2012,” December 31, 2011. Requires the Military Departments to establish policy
                 to ensure the preservation of records and evidence for periods of time that ensure
                 members of the Armed Forces and veterans of military service who were victims of
                 sexual assault during the military service are able to substantiate claims.

                 Public Law 113-66, Section 1734, “National Defense Authorization Act for Fiscal Year
                 2014,” December 26, 2013. Directed the Secretary to review the progress made in
                 developing and implementing sexual assault evidence and records retention and
                 access policy required by NDAA FY 2012.


                 DoD Issuances
                 DoD Directive 5400.7, “DoD Freedom of Information Act Program,” January 2, 2008.
                 Makes available DoD records requested by a member of the public who explicitly or
                 implicitly cites the FOIA.

                 DoD Directive 5400.11, “DoD Privacy Program,” May 8, 2007, Incorporating Change 1,
                 September 1, 2011. Ensures the legal rights of individuals shall be protected when
                 collecting, maintaining, using or disseminating personal information about individuals.

                 DoD Directive 6495.01, “Sexual Assault Prevention and Response (SAPR) Program,”
                 January 23, 2012 Incorporating Change 1, April 30, 2013. Implements DoD policy
                 and assigns responsibilities for the SAPR Program on prevention, response, and
                 oversight to sexual assault.

                 DoD Instruction 5505.18, “Investigation of Adult Sexual Assault in the Department of
                 Defense,” January 25, 2013 (Incorporating Change 1, May 1, 2013). Establishes policy,
                 assigns responsibilities, and provides procedures for the investigation of adult sexual
                 assault within the DoD in accordance with the authority in Appendix 3 of Title 5,




10 │ DODIG-2014-082
                                                                                              Appendix



United States Code (U.S.C.) and DoD Directive (DoDD) 5106.01, “ Inspector General
of the Department of Defense (IG DoD),” April 20, 2012.

Directive Type Memorandum (DTM) 11-062, “Document Retention in Cases of
Restricted and Unrestricted Reports of Sexual Assault,” December 16, 2011, Incorporating
Change 2, December 7, 2012. The DTM established DoD policy on the retention of
sexual assault records pertaining to service members who report being sexual assault
victims. The DTM mandated retention schedules for records of service members who
reported they are sexual assault victims based on whether they filed a Restricted or
Unrestricted Report as defined in DoD Directive (DoDD) 6495.01, “Sexual Assault
Prevention and Response (SAPR) Program,” January 23, 2012 Incorporating Change 1,
April 30, 2013.


Service Issuances
U.S. Army Regulation 195-5, “Evidence Procedures,” February 22, 2013. Establishes
policies and procedures on criminal and counterintelligence investigation evidence
procedures, including the collection, accounting, preservation, and disposition
of evidence.

U.S. Army Criminal Investigative CID Regulation 195–1, “Criminal Investigation
Operational Procedures,” March 4, 2014. Establishes procedures pertaining to criminal
investigative activities, reporting of criminal incidents, support functions, and other
CID operations.

U.S. Army Criminal Investigative CID Regulation 195–2, “Criminal Investigation
Activities,” May 15, 2009, Rapid Revision Issue: September 6, 2011.          Prescribes
Department of the Army (DA) policy on criminal investigation activities, including
the utilization, control, investigative authority, and responsibilities of all personnel
assigned to elements of the U.S. Army Criminal Investigation Command (USACIDC).

ALCID Memorandum 013-13, “Guidance on Retention of Sexual Assault Evidence,”
May 8, 2013. Implements DoD IG guidance regarding the retention of sexual assault
evidence. The DoDIG has recognized the need to modify the retention standards.

ALCID Memorandum 024-13, “Guidance on Retention of Sexual Assault Evidence,”
November 15, 2013. Modify guidance regarding the retention of sexual assault evidence.

SECNAV M-5210.1, “Department of the Navy Records Management Program,”
January 2012, Revision 1 Incorporated May 2012. Establishes policies and procedures




                                                                                       DODIG-2014-082 │ 11
Appendix



                 for life cycle management (creation, maintenance, use, and disposition) of DON records.
                 Also provides guidelines and procedures for the proper administration of a records
                 management program and contains all DON records disposition schedules approved
                 by the National Archives and Records Administration (NARA).

                 NCIS-1, Chapter 5, “Inspector General Matters,” December 2006. Describes NCIS IG
                 responsibility for providing oversight to the efficiency, effectiveness, and integrity of
                 NCIS operations and personnel.

                 NCIS-1, Chapter 19, “File Retention and Disposal of Closed Case Law Enforcement Case,”
                 September 2008. Provides for systematic retention and retrieval of all NCIS investigative,
                 counterintelligence, counterterrorism, and Security Clearance Adjudication closed
                 case files.

                 NCIS-1, Chapter 20, “Freedom of Information Act Policy,” December 2006. Sets forth-
                 basic policy and procedures for making NCIS records available to the public.

                 NCIS-1, Chapter 21, “Personal Privacy and Rights of Individuals (Privacy Act),”
                 December 2006.       Sets forth-basic policy and procedures concerning the rights
                 of individuals to records concerning them as well as restrictions imposed on the
                 collection and disclosure of personal information from records systems.

                 NCIS-3, Chapter 13, “Evidence Custody System,” December 2006. Establishes policies
                 and procedures on criminal investigation evidence procedures, including the collection,
                 accounting, preservation, and disposal of evidence.

                 NCIS-3, Chapter 34, “Sex Offenses”, September 2007. Provides policy and procedures
                 for criminal investigations conducted by NCIS into sex-related offenses.

                 General Administration 11C-0028, NCIS Policy Document 13-06, “Investigation of Adult
                 Sexual Assaults,” October 7, 2013. Updates NCIS policy governing the investigation
                 of adult sexual assaults and requirements established by DoDI 5505.18 regarding
                 investigation of reported adult sexual assaults; requirements related to suspected
                 threats against sexual assault victims; and reporting, notification, and training
                 responsibilities for investigators.

                 Air Force Office of Special Investigations Manual 71-118V4, “General Investigative
                 Methods,” Incorporating All Changes Through Change 4 (IC-4, March 1, 2013). Provides




12 │ DODIG-2014-082
                                                                                                Appendix



policy, guidance, and procedures necessary to comply with laws and higher directives,
ensure health and safety, standardize investigative operations, and ensure investigative
sufficiency for general investigative methods.

Air Force Office of Special Investigations Guidance Memorandum Air Force Office of
Special Investigations Manual 71-121 GM-06, “Adult Sexual Assault Case Guidance,”
March 1, 2013.       Consolidates and implements various Department of Defense,
Air Force, and AFOSI policies on initiating, conducting, and documenting sexual
assault investigations.

Air Force Office of Special Investigations Manual 71-121, “Processing and Reporting
Investigative Matters,” January 13, 2009, Incorporating All Changes Through Change 5
(IC-5, October 12, 2012). Provides guidance in receiving, documenting, reviewing,
and reporting investigative matters utilizing AFOSI’s Investigative Information
Management Systems (I2MS). This manual also prescribes guidance for closing,
screening, archiving, mailing, and storing AFOSI files and provides information, guidance,
and procedures for processing, documenting, and reporting investigative matters.

Air Force Office of Special Investigations Manual 71-122V1, “Criminal Investigations,”
September 28, 2012, Incorporating All Changes Through Change 2 (IC-2,
August 14, 2013). Provides guidance on certain drug investigations and sexual assault
investigations due to changes in law and Department of Defense policy regarding
these types of investigations.




                                                                                         DODIG-2014-082 │ 13
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
